U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 10, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jonathan Wallace Gomez v. United States, No. 20-6407
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 18,
2020. The government’s response is now due, after one extension, on February 22, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 26, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6407
GOMEZ, JONATHAN WALLACE
USA

TAYLOR WILLS EDWARDS BROWN
ASSISTANT FEDERAL PUBLIC DEFENDER
P.O. BOX 17743
819 TAYLOR STREET
ROOM 9A10
FORT WORTH, TX 76102
817-978-2753
TAYLOR_W_BROWN@FD.ORG

